Washington, D.C. 20530

September 30, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Steven Baxter v. United States,
S.Ct. No. 20-5133

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 14, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on October 9, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 9, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5133
BAXTER, STEVEN
USA

JOSEPH A. DIRUZZO
DIRUZZO & COMPANY
401 EAST LAS OLAS BLVD.
STE. 1400
FT. LAUDERDALE, FL 33301
305-350-5690
JDIRUZZO@FUERSTLAW.COM

